               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           Commercial Mail Entry and
             Acceptance Initiatives

                       Audit Report




                                         September 14, 2012

Report Number EN-AR-12-004
                                                                    September 14, 2012

                                                           Commercial Mail Entry and
                                                              Acceptance Initiatives

                                                         Report Number EN-AR-12-004



BACKGROUND:
The U.S. Postal Service developed            recording commercial mail transactions
initiatives for commercial mail entry and    and managing customer accounts, has
acceptance processes necessary to            experienced multiple operational and
achieve core business strategies and         availability issues. The mailing industry
performance goals. The objective of this     also has concerns about the availability
audit was to determine the status of         of PostalOne! and other issues related
these initiatives and to identify issues     to commercial mail initiatives. Failure to
facing the Postal Service as it moves        properly address these issues may
forward with them.                           result in mailers’ reluctance to
                                             participate in the Full-Service intelligent
WHAT THE OIG FOUND:                          mail barcode program, which is critical
The key initiatives, which will streamline   to the success of these initiatives.
the commercial mail entry and
acceptance processes, are only in the        WHAT THE OIG RECOMMENDED:
initial phases but are currently meeting     We recommended management closely
planned milestones. However, there are       monitor the financial and operational
ongoing issues that may negatively           risks related to proposed commercial
impact the current and future success of     mail entry and acceptance initiatives
these initiatives.                           and address availability issues related to
                                             PostalOne!. Further, we recommended
The Postal Service developed and             identifying additional incentives to
revised its proposal for transforming        increase mailer participation in the
commercial mail acceptance several           Full-Service intelligent mail barcode
times throughout this fiscal year. This      program and develop a plan to address
occurred because management needed           concerns mailers have with commercial
to submit additional data to various         mail transformation initiative
internal units to further justify the        requirements. Lastly, we recommended
proposal. Although the project was           developing a process that will allow
approved on July 25, 2012, we believe        Full-Service intelligent mail barcode
financial and operational risks will         mailers the opportunity to challenge
continue to exist.                           postage adjustments made to
                                             streamlined mailings.
In addition, PostalOne!, the
Postal Service’s primary system for          Link to review the entire report
September 14, 2012

MEMORANDUM FOR:           PRITHA N. MEHRA
                          VICE PRESIDENT, MAIL ENTRY AND PAYMENT
                          TECHNOLOGIES

                          JAMES P. COCHRANE
                          VICE PRESIDENT, PRODUCT INFORMATION

                          JOHN T. EDGAR
                          VICE PRESIDENT, INFORMATION TECHNOLOGY

                          JEFFREY C. WILLIAMSON
                          VICE PRESIDENT, PRICING



FROM:                     Darrell E. Benjamin, Jr.
                          Deputy Assistant Inspector General
                           for Revenue & Systems

SUBJECT:                  Audit Report – Commercial Mail Entry and Acceptance
                          Initiatives (Report Number EN-AR-12-004)

This report presents the results of our audit of Commercial Mail Entry and Acceptance
Initiatives (Project Number 12RG009EN000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Sean D. Balduff, director,
Retail, Business, and International, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Deborah Giannoni-Jackson
    Martin J. McGuire
    Mark A. Mittelman
    Corporate Audit and Response Management
Commercial Mail Entry                                                                                               EN-AR-12-004
 and Acceptance Initiatives



                                            TABLE OF CONTENTS
Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Status of Specific Streamlined Mail Entry Initiatives ........................................................ 2

Commercial Mail Acceptance Transformation Decision Analysis Report ........................ 3

PostalOne! System Issues .............................................................................................. 4

Mailer Concerns .............................................................................................................. 5

   Incentives/Discounts Do Not Offset Mailer Costs ........................................................ 6

   Training........................................................................................................................ 7

   Postage Adjustment (Reconciliation) Process ............................................................. 7

   Mailer Participation ...................................................................................................... 8

Recommendations .......................................................................................................... 9

Management’s Comments ............................................................................................ 10

Evaluation of Management’s Comments ....................................................................... 10

Appendix A: Additional Information ............................................................................... 12

   Background ............................................................................................................... 12

   Objective, Scope, and Methodology .......................................................................... 14

   Prior Audit Coverage ................................................................................................. 15

Appendix B: Management’s Comments ........................................................................ 18
Commercial Mail Entry                                                                                  EN-AR-12-004
 and Acceptance Initiatives



Introduction

This report presents the results of our audit of Commercial Mail Entry and Acceptance
Initiatives (Project Number 12RG009EN000). This self-initiated review addresses
operational risks related to the Postal Service’s Delivering Results, Innovation, Value,
and Efficiency (DRIVE) 17 initiative – Commercial Mail Acceptance Transformation
(CMAT). Our objective was to determine the status of various commercial mail entry
and acceptance initiatives and to identify issues facing the U.S. Postal Service as it
moves forward with these initiatives. See Appendix A for additional information about
this audit.

The Postal Service is currently facing the challenge of protecting commercial mail
revenue. Commercial mailings accounted for $47.9 billion (about 72 percent) of total
revenue in fiscal year (FY) 2011. 1 Total revenue declined by about $9 billion from FY
2008 to FY 2011 and is expected to continue declining in the foreseeable future. 2 These
declines are the result of economic downturns and the accelerating preference for
digital communication alternatives. As such, the Postal Service developed 36 DRIVE
initiatives comprised of vital projects and activities necessary for it to achieve core
business strategies and performance goals.

The DRIVE 17 initiative, CMAT, focuses on the commercial mail entry and acceptance
channel that serves as an essential bridge between the Postal Service and business
customers. This channel is continually challenged with high operational costs due to
paper-intensive processes, manual mail verification processes, compliance issues, and
a complex and evolving mailing environment. DRIVE 17 activities concentrate on
automating mail preparation, acceptance, and verification to strengthen the business-to-
customer channel, reduce costs, improve revenue assurance, and improve the
customer experience.

Conclusion

The electronic induction (eInduction), seamless acceptance, and electronic verification
system (eVS) initiatives, which are designed to streamline mail entry and acceptance
processes, are in the pilot, proof-of-concept, and system enhancement phases,
respectively. 3 These projects are currently meeting planned milestones. However, there
are ongoing issues, which may negatively impact the current and future success of
commercial mail initiatives.



1
  Figures obtained from the Accounting Data Mart.
2
  Figures obtained from the Accounting Data Mart..
3
  A pilot is a preliminary program that evaluates feasibility, time, costs, and adverse events to predict how best to
proceed with future development. Proof-of-concept is a method to verify that a concept or theory has the potential of
being used in the future and is developed before a pilot program. System enhancements are improvements to the
reliability and performance of a system.
                                                              1
Commercial Mail Entry                                                                                    EN-AR-12-004
 and Acceptance Initiatives


The Mail Entry and Payment Technologies group developed and revised the CMAT
Decision Analysis Report (DAR) 4 several times throughout this fiscal year. This
occurred because the group needed to provide additional data to various internal units
to further justify the proposal before the Investment Review Committee (IRC) 5 could
make a final decision. Although the CMAT project was approved on July 25, 2012, we
believe financial and operational risks will continue to exist.

In addition, PostalOne!, 6 the Postal Service’s primary system for recording business
mail transactions and mailers’ primary system for managing their accounts, has
experienced several operational and availability issues. The mailing industry also
expressed concerns about these and other issues related to commercial mail entry and
acceptance initiatives. Failure to properly address these issues may result in mailers’
reluctance to participate in the Full-Service Intelligent Mail® barcode (IMb) program. 7

Status of Specific Streamlined Mail Entry Initiatives

Streamlined mail entry initiatives related to eInduction, seamless acceptance, and eVS
are in pilot, proof-of-concept, or system enhancement phases, respectively. These
projects are generally meeting planned milestones.

eInduction: eInduction is proposed to replace manual hard copy verification and
clearance procedures with an automated paperless verification process for plant-verified
drop shipments (PVDS). 8 The process will leverage existing electronic documentation,
IMbs, and handheld scanner technologies to provide an integrated capability of
validating container payment at a destination facility without the need for paper PVDS
forms as proof of payment. eInduction was limitedly deployed at three pilot sites: the
Chicago, IL Network Distribution Center (NDC); the Tampa, FL Logistics and
Distribution Center; and the Dulles, VA Processing and Distribution Center. The Postal
Service is currently verifying the payment of mailings at the container level at these sites
and ensuring containers are inducted into the correct destination facility. In addition, the
Postal Service is analyzing the data from these pilot efforts and will continue doing so
as it transitions into the seamless acceptance pilot phase.

Seamless Acceptance: Seamless acceptance is the Postal Service’s program to
streamline significant aspects of mail acceptance, verification, payment, and induction

4
  The purpose of a DAR is to ensure that Postal Service investments are properly documented and reviewed. A DAR
must be prepared when the requiring organization requests an investment. The DAR defines the problem and details
the need for the expenditure, providing sufficient detail to enable the approving officials to make an informed decision.
5
  The IRC establishes Postal Service investment direction, policy, and procedures; ensures compliance with
investment policy procedures; and prioritizes resource utilization. The IRC must review and vote on individual projects
greater than $5 million in combined total capital and expense investment.
6
  PostalOne! is used to record business mail and Periodicals transactions. The system allows users to enter postage
statements, deposits, and other financial transactions; and to retrieve reports necessary to manage the daily business
of their units. It also allows customers to submit postage statements and other information to the Postal Service
through a web-based process.
7
  The purpose of Full-Sservice acceptance and verification is to ensure that Full-Service mailings meet IMb
preparation and data requirements to qualify for Full-Service discounts.
8
  PVDS allows mailings and the related postage payment to be verified at an origin postal facility and then returned to
the mailer for transport to a destination Postal Service facility.


                                                           2
Commercial Mail Entry                                                                                    EN-AR-12-004
 and Acceptance Initiatives


for First-Class™ and Standard mail, letters, cards, flats, and Periodicals. Seamless
acceptance will automate business mail acceptance and verification processes by
associating mailer manifest 9 data with IMb scans of mailpieces containing customer
identification, facility, and delivery point data. Seamless acceptance is in the
proof-of- concept phase, and the Postal Service plans to pilot the program in October
2012.

eVS: eVS has been effective in streamlining and automating the acceptance and
verification process for commercial packages. eVS allows package mailers and
consolidators to document and pay postage, including extra service fees, by using
electronic manifest files. Although the eVS streamlined verification model provides
significant improvements in verification efficiency and revenue assurance capabilities,
the Postal Service is continuing to improve the system by expanding support for all
commercial package projects and services, increasing reporting capabilities, and
improving reconciliation processes. System enhancements are implemented through
PostalOne! updates.

We believe the Postal Service is actively working toward its intended goals and, as
such, we are not making a recommendation related to these projects at this time. We
encourage the Postal Service to continue pursuing these efforts as it transitions to an
automated environment. However, other ongoing issues may negatively affect the
current and future success of these mail entry and acceptance initiatives.

Commercial Mail Acceptance Transformation Decision Analysis Report

Although the Postal Service is currently developing and piloting various projects, as
indicated previously, many of its proposed initiatives have yet to be completed. The
Postal Service initially started streamlining business mail entry, acceptance, and
verification efforts in FY 2007 when the U.S. Postal Service Office of Inspector General
(OIG) first reported a significant deficiency 10 related to commercial mail acceptance and
verification controls. 11 Over the years, the Postal Service has implemented corrective
actions to help mitigate the deficiencies and, more recently, developed plans to
leverage electronic documentation and Full-Service IMb to automate acceptance and
verification processes. These latter efforts resulted in development of the CMAT DAR.
The Mail Entry and Payment Technologies group submitted multiple versions of the
CMAT DAR throughout this fiscal year, none of which were approved until July 25,
2012. This occurred because the group needed to provide additional data 12 to various
internal units to further justify the proposal before the IRC could make a final decision.
While the DAR was being changed and updated, the group received $21.6 million in
9
  A manifest is a document listing the contents of a mailing.
10
   Per the Statement on Auditing Standards No. 115, Communicating Internal Control Related Matters Identified in
an Audit, dated December 2009, a significant deficiency is a deficiency, or a combination of deficiencies, in internal
control that is less severe than a material weakness, yet important enough to merit attention by those charged with
governance.
11
   Fiscal Year 2007 Financial Installation Audits – Business Mail Entry Units (Report Number FF-AR-08-131, dated
March 19, 2008).
12
   The group provided additional data related to potential savings, requirements, costs, and functionality for the
projects included in the DAR.


                                                           3
Commercial Mail Entry                                                                              EN-AR-12-004
 and Acceptance Initiatives


advanced funding for the CMAT project through July 2012. At the July 25 IRC meeting,
the committee approved the remaining $82 million needed to fund the project through
FY 2019. Although the CMAT project was approved, we believe financial and
operational risks will continue to exist. For example, projects of this magnitude have an
inherently high financial risk of exceeding approved funding levels. In addition, the
Postal Service needs to improve its current Full-Service IMb adoption rate for these
projects to be fully successful.

PostalOne! System Issues

The PostalOne! system continues to encounter issues that cause operational and
availability problems for Postal Service personnel and customers. The Postal Service
implemented a system software upgrade (Release 29) in January 2012, which resulted
in 768 issues related to financial accountability, verification processes, and production
time outs. Postal Service management also determined there was a significant
deficiency in the performance of change management controls related specifically to
this release and subsequent software releases for FY 2012, Quarters 2 and 3. 13 This
occurred because a large number of system enhancements combined with a critical rate
change significantly stressed the organization’s resources involved in the upgrade.
Therefore, the Postal Service could not complete all the necessary testing before the
software upgrade. As such, management continues to perform monitoring activities
designed to provide reasonable assurance that business mail revenue is correctly
recorded and system outages are promptly addressed.

In a June 11, 2012 letter, the president of the Association for Postal Commerce outlined
concerns customers have with PostalOne!. 14 Some of their concerns include:

    System outages and downtime are defined differently by the Postal Service and the
     mailing community. For example, mailers and service providers frequently
     experienced what the Postal Service defines as intermittent system unavailability.
     Mailers believe the Postal Service may not define these instances as outages and
     does not track them in terms of its system performance, but these intermittent
     outages cause significant delays in processing electronically submitted files.
     However, Postal Service officials stated any system outage is determined to be a
     critical incident and they promptly work to correct the issues. 15 In addition, it tracks,
     logs, and monitors all outages as a means to determine root causes.

    Mailers and service providers must use technical teams to evaluate the status of
     files that are in transit when PostalOne! goes down. The teams must determine how
     to recover files resulting from the unexpected outage.

13
   Postal Service management’s Evaluation Memorandum for PostalOne! Release 29-January 2012 (May 10, 2012),
and Evaluation Memorandum-PostalOne! Change Control Management (August 9, 2012).
14
   The letter was sent to Elizabeth Dobbins, Postal Service Product Classification manager, on June 11, 2012,
regarding the Advance Notice of Proposed Rulemaking, Implementation of Full-Service Intelligent Mail Required for
Automation Prices, Code of Federal Regulations, Volume 77, No. 77, 23643-23647.
15
   The Postal Service recently created an enterprise system-monitoring group that monitors PostalOne!
round-the-clock to ensure it is operating as expected.


                                                        4
Commercial Mail Entry                                                                                 EN-AR-12-004
 and Acceptance Initiatives



    Mailers frequently experienced slow processing time when submitting files through
     PostalOne!, as well as slow system response time when navigating through the
     PostalOne! web pages.

Additionally, the OIG reported issues related to another PostalOne! outage that
occurred in February 2010. 16 This outage considerably impacted the effectiveness of
business mail entry operations and customer mailing activities. Customers incurred
additional costs and expressed concern regarding the operational availability of
business mail acceptance systems. Specifically, certain mail acceptance business
controls that relied on the operational availability of PostalOne! were not effective during
the outage. Mailers could not submit postage statements electronically and business
mail acceptance employees could not enter postage statements, record revenue at the
time mail entered the mailstream, verify whether customer accounts had sufficient funds
or qualified for reduced rates, and prompt employees when in-depth mail verifications
were required. This resulted in revenue collection and recognition delays and increased
employee, contractor, and customer costs.

Mail entry and acceptance initiatives rely on PostalOne! integrity, reliability, and
functionality to automate acceptance and verification processes for business mailings.
The Postal Service is proposing that mailers use this paperless environment by 2014 in
order to receive full automation discounts; 17 however, mailers are reluctant to do so
when PostalOne! is not operating as expected. Therefore, frequent interruptions in the
availability of PostalOne! and the lack of confidence in the system’s stability cause
mailer frustration and angst.

Mailer Concerns

The mailing industry has expressed concerns about commercial mail entry and
acceptance initiatives and the costs associated with the requirements for Full-Service
IMb. Streamlined mail entry efforts such as eInduction and seamless acceptance are
still in the pilot and proof-of-concept phases. Therefore, mailers are skeptical about how
these efforts will affect the Full-Service IMb 2014 proposed requirement. Some mailers
also have not been receptive to the Full-Service IMb effort because the current
incentives and discounts offered do not offset their implementation costs.

In addition, mailers do not feel Postal Service employees fully understand the new
initiatives and have concerns related to postage reconciliation activities. Although the
mailing industry voiced its opinions 18 and provided feedback to the Postal Service about
these issues, some mailers feel the Postal Service has not been responsive to their

16
   Fiscal Year 2010 PostalOne! Outage (Report Number FF-AR-10-205, dated August 5, 2010).
17
   In order for mailers to receive full automation discounts for letters, postcards, and flats, the Postal Service is
proposing to mandate the full-service IMb option in January 2014. The Postal Service posted an advance notice of
the requirement in the Federal Register on April 20, 2012, as a means to solicit feedback from mailers.
18
   Customers have various means such as Mailers Technical Advisory Committee (MTAC) work groups, Business
Service Network, the Federal Register, National Postal Forum breakout groups, and other forms of communication to
provide feedback to the Postal Service.


                                                          5
Commercial Mail Entry                                                                               EN-AR-12-004
 and Acceptance Initiatives


concerns. According to some mailers, this occurred because the Postal Service did not
accurately estimate the financial and operational impact these programs would have on
the mailing industry. The Postal Service must ensure that its processes, systems, and
data can be accessed by employees to efficiently process and deliver mail and by
customers to gain greater visibility into the mailstream. If the Postal Service cannot
create a favorable intelligent mail system, mailers will be reluctant to participate in the
Full-Service IMb program in 2014.

We surveyed the mailing industry to obtain feedback on various business mail
initiatives. 19 We received 22 replies from our surveys and included notable responses in
the following sections.

Incentives/Discounts Do Not Offset Mailer Costs

For several years the mailing industry 20 has voiced its concerns related to the financial
impact it will incur in order to become Full-Service IMb compliant. Mailers have stated
the current financial incentives offered through postage discounts do not cover the
investment costs needed to implement Full-Service IMb. In addition, mailers have
contended that the Postal Service does not fully understand the costs of implementing
such a program. Mailers who use Full-Service IMb receive an additional postage
discount of $.003 for each First-Class mailpiece and $.001 for each Standard mailpiece
or Periodicals. Although the Postal Service also provides a free address correction
service, a waiver of annual permit mailing fees and end-to-end mailing visibility to its
customers who use Full-Service IMb, mailers do not feel that current incentives are
sufficient.

The following are examples of responses from mailers related to the cost of
implementing the Full-Service IMb program:

    Full-Service IMb is costly and complicated to certify and the incentives do not begin
     to cover the costs of system upgrades and the training needed to become certified.

    Mailers feel the return on their investment will take years to be realized.

    Mailers are concerned the proposed 2014 requirement to implement Full-Service
     IMb for automation discounts will force them to make costly software upgrades
     during a time of financial hardship.

    Mailers expect to absorb all unexpected postage costs that, in some cases, are
     currently incurred by clients.



19
   We provided our surveys to mail association presidents via email, who, in turn, forwarded the surveys to various
association members. We also reviewed similar feedback obtained from MTAC workgroup meetings and the April 20,
2012 Federal Register.
20
   The mailing industry includes businesses, organizations, and other parties that send and receive mail for
themselves as well as for others.


                                                         6
Commercial Mail Entry                                                                                 EN-AR-12-004
 and Acceptance Initiatives


    Full-Service IMb seems to be a benefit to the Postal Service only, yet the costs are
     solely absorbed by its customers.

    This effort will be very costly if each plant needs to update its systems and
     computers and provide training. Smaller companies will not be able to allocate
     enough resources to participate in the program.

Training

Although the Postal Service provided individual field, district, and area staff with various
web-based, video, job aids, and classroom training, mailers feel that acceptance
employees do not always interpret the rules for accepting and verifying mail consistently
or understand the procedures enough to address customer concerns. Mailers provided
the following responses related to business mail acceptance personnel:

    They feel it is often difficult to find Postal Service employees who are knowledgeable
     about new procedures and programs.

    Mailing requirements staff often advise mailers in advance that a mailing could be
     sent at a particular rate, only to have an acceptance clerk overrule the decision
     when the mail is presented based on a different interpretation of policy and
     procedure. When a decision is reversed or changed unexpectedly, additional
     postage costs may be incurred.

    They feel Full-Service IMb initiatives will be costly, confusing, disruptive, and provide
     very little additional benefit to their clients. Mailers expect to spend many hours
     trying to determine how to adapt their operations to meet program requirements.
     Mailers also believe Postal Service business mail clerks do not fully understand the
     program and the PostalOne! help desk will be overwhelmed with technical calls. 21

    They feel management does not understand the challenges the industry faces when
     dealing with acceptance clerks. Inconsistent interpretations of the rules are more the
     norm than the exception.

Postage Adjustment (Reconciliation) Process

Under Full-Service IMb, mailers feel they will not have appropriate recourse to
challenge postage adjustments 22 made after the mail has already entered the
mailstream. However, according to Postal Service officials, eVS mailers can appeal
additional postage due resulting from adjustment factors made to commercial packages
on a monthly basis. 23 The Postal Service plans to develop a similar reconciliation
process for Full-Service IMb adjustments.
21
   Employees will still be involved in the automated process to assist mailers with system, policy, and procedural
issues.
22
   These are potential adjustments made to mailings (such as additional postage due) after the mail has entered the
mailstream.
23
   eVS Business and Technical Guide, Section 4.3.11, June 24, 2012.


                                                         7
Commercial Mail Entry                                                                      EN-AR-12-004
 and Acceptance Initiatives


Mailers provided the following responses related to postage adjustments:

   Mailers question whether they will lose all automation discounts if mailings have
    errors and are concerned that errors may be generated by the Postal Service and
    not by them.

   Mailers are concerned about managing disputes related to mailpiece design,
    barcodes, and preparation after the mail has left their facilities. Mailers stated they
    would not know where the problem originated or have the opportunity to correct the
    condition.

   Mailers feel the seamless acceptance concept sounds good on paper; however,
    possible penalties may prevent many mailers from using it for the majority of their
    customers. Once the mail is inducted into the mailstream, mailers no longer have the
    ability to make corrections or resolve issues that they could have resolved in the
    PVDS environment.

   Mail service providers fear that once the mail is inducted into the system, it may take
    weeks to know the postage and/or penalties assessed. By that time, service
    providers may be responsible for paying the additional costs instead of their
    customers.

Mailer Participation

Feedback from the mailing industry is indicative of mailers’ reluctance to participate in
the Full-Service program, as well as the need to fully educate mailers regarding the
various mail entry and acceptance initiatives.

The Postal Service is proposing requiring mailers to use Full-Service IMb by January
2014 to receive full automation discounts. Table 1 shows the percentage by which
Full-Service IMb mail volume has increased since FY 2010. However, Full-Service IMb
mail represented only 48 percent of the total commercial mail volume as of FY 2012,
Quarter 3.

                              Table 1: Full-Service IMb Mail Volume

                                    Total
                                 Commercial               Full-Service           Full-Service
                                   Volume                   Volume                 Volume
             Fiscal Year         (Mailpieces)             (Mailpieces)           Percentage
                2010           140,864,583,795           32,452,656,958                   23%
                2011           140,198,376,041           58,656,224,858                   42%
            2012 through
              Quarter 3        101,163,693,301           48,333,178,493                  48%
         Source: Application System Reporting system on the Enterprise Data Warehouse.




                                                     8
Commercial Mail Entry                                                                               EN-AR-12-004
 and Acceptance Initiatives


The goal is 100 percent participation by FY 2014 and without sufficient numbers of
customers participating in Full-Service IMb, the Postal Service may not realize all the
intended long-term benefits of discontinuing its existing, manual acceptance and
verification process. Similarly, the Postal Service’s ability to improve customer service
by providing tracking information on individual mailpieces will be limited. 24

Recommendations

We recommend the vice president, Mail Entry and Payment Technologies:

1.    Closely monitor and identify for senior management any performance, financial, or
      operational risks that develop during the implementation of the decision analysis
      report to ensure commercial mail acceptance transformation projects do not
      exceed approved funding levels and meet planned expectations.

We recommend the vice president, Pricing, in coordination with the vice president, Mail
Entry and Payment Technologies, and the vice president, Product Information:

2.    Identify and promote additional incentives to increase mailer participation in the
      Full-Service program.

We recommend the vice president, Mail Entry and Payment Technologies:

3.    Develop a plan to identify and address training concerns mailers have with
      commercial mail transformation initiative requirements.

4.    Develop a process that will allow Full-Service intelligent mail barcode mailers the
      opportunity to challenge potential postage adjustments made to mailings after they
      have entered the mailstream.

We recommend the vice president, Information Technology, in coordination with the
vice president, Mail Entry and Payment Technologies:

5.    Develop an action plan to address and correct PostalOne! operational problems
      affecting the integrity, reliability, and functionality of the system; and conduct
      thorough testing before releasing and implementing system upgrades.




24
  U.S. Postal Service: Intelligent Mail Benefits May Not Be Achieved If Key Risks Are Not Addressed (Report
Number GAO-09-599, dated May 6, 2009).




                                                        9
Commercial Mail Entry                                                           EN-AR-12-004
 and Acceptance Initiatives



Management’s Comments

Management concurred with our findings and recommendations 1 through 4 and
agreed in part with recommendation 5.

Regarding recommendation 1, management stated they will continue to assess
operational and performance risks that may develop during the lifecycle of the DAR.
The Postal Service provided an implementation date of July 2012, but in subsequent
correspondences, clarified that this is an ongoing effort that will continue throughout the
lifecycle of the DAR, which runs through FY 2019.

Regarding recommendation 2, management plans to develop an incentive program by
October 2013 to increase IMb adoption and Full-Service participation.

Regarding recommendation 3, management will provide additional training both
internally and externally to support ongoing business mail initiatives by June 2014.

Regarding recommendation 4, management will continue to work with the applicable
MTAC workgroup to develop procedures related to postage adjustments. Management
provided an implementation date of January 2014.

Management agreed in part with recommendation 5. Management agreed to develop an
action plan to address and correct PostalOne! operational problems. They also agreed
to conduct pre- and post-software release assessments to ensure continuous
improvement in testing cycles. Management said they will develop an action plan by
March 31, 2013 and the plan will include a list of high-priority items. Management also
plans to correct high priority items by September 30, 2013. To clarify this, the OIG
conducted follow-up discussions and was informed that business and information teams
classify system items as either high, medium, and low priority. Therefore, management
will need to perform a series of reviews to identify an item’s priority level and determine
what actions are needed.

Management, however, did not agree to the part of recommendation 5 requiring
thorough testing before releasing or implementing system upgrades. Management
believes this recommendation is misleading because they already conduct detailed
system and customer acceptance testing for all new releases. However, Release 29
was an exception because it had an unusually large number of system enhancement
requests, which strained the organization’s resources and disrupted the normal testing
process. See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. While management
disagreed with a portion of recommendation 5, they stated they will continue to perform
detailed system and customer acceptance testing, which is responsive to the


                                            10
Commercial Mail Entry                                                    EN-AR-12-004
 and Acceptance Initiatives


recommendation. The OIG considers recommendation 5 significant, and therefore
requires OIG concurrence before closure. Consequently, the OIG requests written
confirmation when corrective actions are completed. This recommendation should not
be closed in the Postal Service’s follow-up tracking system until the OIG provides
written confirmation that the recommendations can be closed.




                                         11
Commercial Mail Entry                                                                             EN-AR-12-004
 and Acceptance Initiatives


                                    Appendix A: Additional Information

Background

The Mail Entry and Payment Technologies group is developing and implementing a
streamlined mail entry project, which includes various initiatives to improve the business
mail entry, acceptance, and verification processes. The initiatives include eVS,
eInduction, and seamless acceptance. The goal of the streamlined mail entry project is
to leverage Full-Service IMb to streamline and automate mail preparation, verification
and entry, payment, and account management. The Postal Service believes the
projects will reduce workhours, improve customer experience, increase revenue
assurance and Sarbanes-Oxley (SOX) 25 compliance, and promote 100 percent mail
visibility.

eVS: eVS is an existing system that interfaces with PostalOne!. The system
electronically verifies commercial packages to the mailer’s manifest to ensure accuracy.
Personnel sample and scan mailpieces that are later reconciled to all manifests
received from the mailer on a monthly basis. eVS improves the quality of mail by
producing reports that allow mailers and the Postal Service to monitor the quality of
mailings. Figure 1 illustrates the eVS process.

                                  Figure 1: eVS Overview Process




     Source: SOX Management Control and Integration.

25
  SOX aims to improve corporate governance and to enhance the accuracy of financial reporting (SOX Act of 2002,
Public Law 107-204, 11 Stat 745).




                                                       12
Commercial Mail Entry                                                                                 EN-AR-12-004
 and Acceptance Initiatives


eInduction: eInduction will leverage existing electronic documentation, IMbs, and
handheld scanner technologies to verify payment of PVDS mail at a container level and
ensure the containers are presented at the correct destination facility.

Seamless Acceptance: Under seamless acceptance, mailers apply unique IMbs on
mailpieces, trays, sacks, tubs, pallets, and other containers to automate the business
mail entry verification processes. Figure 2 depicts the future workflow of eInduction and
seamless acceptance processes.

           Figure 2: Future eInduction and Seamless Acceptance Processes




      Source: Mail Entry and Payment Technologies.

IMb: Intelligent mail is an integral component of the overall mail acceptance and entry
process. Intelligent mail is a comprehensive term that describes the integration of
electronic mailing documentation with IMb on all mail and containers. There are two
options for intelligent mail: Basic and Full-Service. Under the Basic option, mailpieces
may contain an IMb but uniqueness is not required. This option qualifies mailings for
automation discounts and enables access to the address correction and mail stream
tracking services.

Under the Full-Service option, mailers are required to apply a unique IMb on their letter
and flat mailpieces, trays and sacks, and other containers and must submit postage
statements and mailing documentation electronically. Mailers who use Full-Service IMb
receive an additional postage discount for each mailpiece. 26



26
   In exchange, Full-Service IMb participants receive end-to-end visibility of their mailings, free address change
information, and a waiver of the annual permit mailing fee when all postage statements contain 90 percent or more
Full-Service mailpieces.


                                                         13
Commercial Mail Entry                                                                                EN-AR-12-004
 and Acceptance Initiatives


Objective, Scope, and Methodology

Our objective was to determine the status of various commercial mail entry and
acceptance initiatives and to identify issues facing the Postal Service as it moves
forward with them. To accomplish our objective, we reviewed roadmaps, strategic
visions, DARs, and existing policies and procedures related to mail entry and
acceptance. We interviewed and obtained documentation from key personnel within the
mail entry and payment technologies, mail industry, finance, product information,
network integration, SOX management control and integration, and engineering groups.
We attended Postal Service and MTAC27 work group sessions on eInduction and
seamless acceptance to learn about problems and resolutions identified by the parties.
The team developed and distributed questionnaires related to business mail entry and
acceptance initiatives to mailer association presidents. The presidents, in turn,
distributed the questionnaire to their association members. We also visited the Chicago,
IL NDC to observe the eInduction pilot effort. Although we did not use data from existing
systems, we discussed changes and impacts to the PostalOne! and eVS systems with
Postal Service managers.

We conducted this performance audit from October 2011 through September 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 1, 2012, and included their
comments where appropriate.




27
  MTAC is a venue for the Postal Service to share technical information with mailers and to receive advice and
recommendations from mailers on matters concerning mail-related products and services in order to enhance
customer value and expand the use of these products and services for mutual benefit.


                                                         14
   Commercial Mail Entry                                                            EN-AR-12-004
    and Acceptance Initiatives



   Prior Audit Coverage

                                     Final
                                    Report           Monetary
 Report Title      Report Number      Date            Impact                 Report Results
Mail               MS-AR-12-002    1/12/2012        $10,310,906   Postal Service mail verification
Verification                                                      procedures were not always
Procedures at                                                     adequate to ensure that business
Detached Mail                                                     mailings contained sufficient
Units                                                             postage or met Postal Service
                                                                  specifications. We also identified
                                                                  two detached mail units where
                                                                  Postal Service employees
                                                                  overrode Mail Evaluation
                                                                  Readability Lookup Instrument
                                                                  results without verifying whether
                                                                  the mail deficiencies were valid.
                                                                  Management concurred with the
                                                                  recommendations and monetary
                                                                  impact.
Strategic           MS-AR-11-007   9/30/2011           None       Preparation for fully automating
Approaches to                                                     the business mail entry process
Revenue                                                           will depend on broadened
Protection                                                        collaboration with processing
                                                                  officials and adoption of
                                                                  Full-Service IMb on mailpieces
                                                                  and containers. Basic IMb and
                                                                  non-automated mail will continue
                                                                  to require costly manual revenue
                                                                  protection procedures until
                                                                  additional automated
                                                                  technologies are developed.
                                                                  Management agreed with our
                                                                  recommendation overall and
                                                                  provided planned actions and a
                                                                  planned completion date.
Service            CRR-AR-11-003   9/6/2011         $19,193,730   The process used to obtain
Performance                                                       service performance scores for
Measurement                                                       commercial mail is not effective.
Data —                                                            The Postal Service has
Commercial                                                        experienced significant data
Mail                                                              quantity, accuracy, and reliability
                                                                  issues resulting in approximately
                                                                  88 percent of Full-Service IMb
                                                                  mail being excluded from service
                                                                  performance measurement.
                                                                  Management agreed with our
                                                                  findings and recommendations.


                                               15
    Commercial Mail Entry                                                         EN-AR-12-004
     and Acceptance Initiatives


                                      Final
                                     Report           Monetary
  Report Title      Report Number      Date            Impact               Report Results
Intelligent Mail:    DA-AR-11-010   8/30/2011           None     The Postal Service postponed
Realizing                                                        implementing an automated
Revenue                                                          revenue assurance for the
Assurance                                                        intelligent mail program to focus
Benefits                                                         on implementing other aspects of
                                                                 the program. Our analysis of
                                                                 Full-Service IMb scan rates
                                                                 indicates that some mailings that
                                                                 met business mail acceptance
                                                                 requirements exhibited low scan
                                                                 rates when processed on mail
                                                                 processing equipment.
                                                                 Management partially agreed with
                                                                 the recommendations and
                                                                 planned to complete a
                                                                 proof-of-concept by January
                                                                 2013.
Effects of           MS-AR-11-006   8/24/2011          None      The Postal Service has not
Compliance                                                       always fully considered how
Rules on                                                         changes to mail compliance rules
Mailers                                                          impact mailers. Management
                                                                 concurred with the findings and
                                                                 recommendations and stated that,
                                                                 where practicable, it will include
                                                                 mailers costs in its cost-benefit
                                                                 analysis of new initiatives.
Full-Service         DA-MA-11-001   11/23/2010         None      Surveys of Full-Service IMb
Intelligent Mail         (R)                                     participants disclosed mixed
Program                                                          results for program usefulness.
Customer                                                         The primary reasons mail owners
Satisfaction                                                     did not participate in the
                                                                 Full-Service program were high
                                                                 start-up costs and limited program
                                                                 benefits. Mail service providers
                                                                 expressed concerns with
                                                                 assistance at the business mail
                                                                 entry units and PostalOne! Help
                                                                 Desk. Management generally
                                                                 agreed with the findings and
                                                                 recommendations and stated that
                                                                 they have effective and ongoing
                                                                 efforts in place to address the
                                                                 issues raised in the report.




                                                 16
    Commercial Mail Entry                                                        EN-AR-12-004
     and Acceptance Initiatives


                                      Final
                                     Report         Monetary
 Report Title       Report Number     Date           Impact               Report Results
Fiscal Year          FF-AR-10-205   8/5/2010        $355,107   The February 2010 PostalOne!
2010                                                           outage impacted mail acceptance
PostalOne!                                                     operations and revenue collection
Outage                                                         efforts nationwide. Although the
                                                               Postal Service implemented a
                                                               contingency plan during this
                                                               period, the Postal Service was not
                                                               adequately prepared to manually
                                                               support operations during such an
                                                               extended outage. In addition,
                                                               employees did not record revenue
                                                               for mailings received during this
                                                               period until the system returned to
                                                               full operation. Further, the Postal
                                                               Service’s reliance on a system
                                                               that has frequent interruptions in
                                                               availability could impact
                                                               successful remediation of an
                                                               existing significant deficiency
                                                               related to business mail
                                                               acceptance. Management agreed
                                                               with one of two recommendations.
U.S. Postal           GAO-09-599    5/6/2009         None      Overall, at the program level, key
Service:                                                       risks include the uncertainty about
Intelligent Mail                                               whether mailers will find the
Benefits May                                                   incentives offered by the Postal
Not Be                                                         Service appealing enough to
Achieved if Key                                                participate in the program,
Risks Are Not                                                  resource limitations, and schedule
Addressed                                                      delays. The Postal Service
                                                               agreed with two of three
                                                               recommendations.




                                               17
Commercial Mail Entry                                             EN-AR-12-004
 and Acceptance Initiatives


                              Appendix B: Management’s Comments




                                             18
Commercial Mail Entry              EN-AR-12-004
 and Acceptance Initiatives




                              19
Commercial Mail Entry              EN-AR-12-004
 and Acceptance Initiatives




                              20
Commercial Mail Entry              EN-AR-12-004
 and Acceptance Initiatives




                              21
